No. 20-1019

In the Supreme Court of the United States
JADE THOMPSON,
V.

Petitioner,

MARIETTA EDUCATION ASSOCIATION, et al.,
Respondents.
On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Sixth Circuit
BRIEF OF PUBLIC POLICY RESEARCH
ORGANIZATIONS AND ADVOCACY GROUPS
AS AMICI CURIAE IN SUPPORT OF
PETITIONER
ERIK S. JAFFE
(Counsel of Record)
GENE C. SCHAERR
JOSHUA J. PRINCE
SCHAERR|JAFFE LLP
1717 K Street, NW, Suite 900
Washington, DC 20006
(202) 787-1060
ejaffe@schaerr-jaffe.com
Counsel for Amici Curiae

QUESTION PRESENTED
Three times in recent years, this Court has recognized that schemes compelling public-sector employees to associate with labor unions impose a “significant impingement” on those employees’ First
Amendment rights. Knox v. Serv. Employees Int’l
Union, Local 1000, 567 U.S. 298, 310-311 (2012);
Harris v. Quinn, 134 S. Ct. 2618, 2639 (2014); Janus
v. American Fed’n of State, Cty., & Mun. Employees,
Council 31, 138 S. Ct. 2448, 2483 (2018). The most
recent of those decisions, Janus, likewise recognized
that a state’s appointment of a labor union to speak
for its employees as their exclusive representative is
“itself a significant impingement on associational
freedoms that would not be tolerated in other contexts.” 138 S. Ct. at 2478. The court of appeals in this
case concluded that compelled association regimes
are “in direct conflict with the principles enunciated
in Janus,” Pet. App. 3, but up-held Ohio’s regime anyway because it considered it-self bound to do so by
Minnesota State Board for Community Colleges v.
Knight, 465 U.S. 271 (1984). The questions presented
are:
1. Whether it violates the First Amendment to designate a labor union to represent and speak for public-sector employees who object to its advocacy on
their behalf.
2. Whether Knight should be overruled.

ii
TABLE OF CONTENTS
QUESTION PRESENTED ........................................... i
TABLE OF AUTHORITIES ....................................... iii
INTEREST OF AMICI CURIAE AND
RULE 29.6 STATEMENT ...................................... 1
INTRODUCTION AND
SUMMARY OF ARGUMENT .............................. 12
ARGUMENT .............................................................. 13
The Petition Presents an Important Question
that Should Be Resolved by this Court. .............. 13
CONCLUSION .......................................................... 17

iii
TABLE OF AUTHORITIES
Cases
Bierman v. Dayton,
900 F.3d 570 (8th Cir. 2018) .................................. 15
D’Agostino v. Baker,
812 F.3d 240 (1st Cir. 2016) .................................. 15
Friedrichs v. California Teachers Assoc.,
No. 14-915 ................................................................ 1
Harris v. Quinn,
134 S. Ct. 2618 (2014) ............................................... i
Hill v. SEIU,
850 F.3d 861 (7th Cir. 2017) .................................. 15
Janus v. American Fed’n of State, Cty., & Mun.
Employees, Council 31,
138 S. Ct. 2448 (2018) ..................................... i, 2, 12
Jarvis v. Cuomo,
660 F. App’x 72 (2d Cir. 2016) ............................... 15
Knox v. Serv. Employees Int’l Union, Local 1000,
567 U.S. 298 (2012) ................................................... i
Minnesota State Board for Community Colleges v.
Knight,
465 U.S. 271 (1984) ......................................... i, 2, 12
Reisman v. Assoc. Facs. of the Univ. of Me.,
939 F.3d 409 (1st Cir. 2019) .................................. 15
Uradnik v. Inter Faculty Org.,
2018 WL 4654751 (D. Minn. Sept. 27, 2018) ........ 15

iv
Other Authorities
Daniel DiSalvo,
Public-Sector Unions After Janus: An Update
(Manhattan Inst., Feb. 14, 2019),
https://media4.manhattaninstitute.org/sites/default/files/IB-DaD-0219.pdf . 16
Frank Manzo IV, Virginia Parks, Robert Bruno & Jill
Gigstad,
The State of the Unions: A profile of Unionization
in Chicago, in Illinois, and in the United States
(Sept. 7, 2020),
http://publish.illinois.edu/projectformiddleclassrene
wal/files/2020/09/ILEPI-PMCR-UCI-The-State-ofthe-Unions-Illinois-2020-FINAL.pdf ..................... 14
Patrick Wright,
Finding Quality Evidence of Union Survivability in
the Absence of Agency Fees: Is the Current
Population Survey’s Public Sector Unionism Data
Sufficiently Reliable?,
2017 U. Chi. Legal F. 563 (2017) ........................... 16
S. Ct. R. 10 ................................................................. 13

INTEREST OF AMICI CURIAE AND
RULE 29.6 STATEMENT 1
Amici curiae are public policy research organizations and advocacy groups that seek to promote limited and effective government and individual freedom. Amici have extensive experience with issues involving public unions and education reform and believe that unions should be supported through employees’ free choice rather than government coercion.
Amici have appeared in courts across the country—
including this Court—in important cases involving
public unions. See, e.g., Friedrichs v. California
Teachers Assoc., No. 14-915.
Amici have a strong interest in this case, which
implicates matters of substantial public concern, including public-sector wages and the governance of
public institutions.
None of the amici is publicly traded or has any
parent corporations, and no publicly traded corporation owns 10% or more of any of the amici. The following organizations join as amici on this brief:
Alaska Policy Forum believes in the fundamental right of workers to pursue economic success with1 No counsel for a party authored this brief in whole or in
part, nor did any person or entity, other than amici, their members, or their counsel, make a monetary contribution intended to
fund the preparation or submission of this brief. Counsel for the
parties were notified of amici’s intent to file this brief 9 days
prior to the filing deadline and have consented to the filing of
this brief. Because Respondents had already waived their right
to reply, they were not prejudiced by the 9-day notice and will
have ample time to respond to this brief should the Court call
for a response.

2
out compulsion. APF is a nonpartisan nonprofit organization which works to empower and educate
Alaskans and policymakers by promoting policies
that grow freedom for all. Under Section 501(c)(3) of
the Internal Revenue Code, APF is a tax-exempt educational organization.
Americans for Fair Treatment (AFFT) is a national nonprofit membership and legal services organization helping public employees understand and
exercise their First Amendment rights in the context
of a unionized workplace. Most AFFT members have
declared independence from their public-sector unions by resigning their union memberships and ending payment of dues. But under prevailing interpretations of Minnesota State Board for Community Colleges v. Knight, 465 U.S. 271 (1984), public employees
have no choice but to be represented by the very public-sector union with which they disagreed and from
which they are actively withholding membership and
dues. This untenable arrangement is no less unconstitutional than the agency shop arrangement addressed in Janus v. AFSCME, 138 S. Ct. 2448 (2018).
The Association of American Educators
(“AAE”) is the largest national nonunion, professional
educator organization, advancing the profession by
offering a modern approach to educator empowerment and advocacy—promoting professionalism, collaboration, and excellence without a partisan agenda.
AAE serves thousands of members in all fifty states.
Its members generally prefer to negotiate their own
contracts rather than be compelled to bargain
through an exclusive representative.

3
The Center of the American Experiment is a
501(c)(3) organization with a strong interest in donor
privacy. It also has been a consistent voice on behalf
of public employees who do not want to support financially, or be represented by, public sector unions
that do not reflect their values or support their interests.
Citizen Action Defense Fund is a “watchdog”
for all Washingtonians, helping to ensure that state
and local governments play by the rules and that the
public's constitutional rights are protected. It opposes
exclusive representation schemes, which it believes
are incompatible with the First Amendment rights of
public employees.
The Commonwealth Foundation transforms
free-market ideas into public policies so all Pennsylvanians can flourish. Its vision is that Pennsylvania
once again writes a new chapter in America's story by
ensuring all people have equal opportunity to pursue
their dreams and earn success. Since the Commonwealth Foundation began fighting for freedom in
Pennsylvania in 1988, it has saved taxpayers billions
of dollars, brought greater knowledge of free-market
principles at happenings in Harrisburg to millions of
fellow citizens, and helped enable hundreds of thousands of families to choose a school for themselves.
The Commonwealth Foundation has analyzed and
ranked public sector labor laws in all 50 states. Its
expertise has been utilized to educate public sector
workers about their rights and form the basis of proposed state legislation to establish “independent bargaining” directly between an individual employee and
employer without the intervention of a union.

4
The Empire Center for Public Policy, Inc., is
an independent, nonpartisan, nonprofit think tank
based in Albany, New York. The Center’s mission is
to make New York a better place to live and work by
promoting public policy reforms grounded in freemarket principles, personal responsibility, and the
ideals of effective and accountable government.
The Georgia Center for Opportunity is a
501(c)(3) nonprofit, nonpartisan organization that
seeks to remove barriers to ensure that every person,
no matter their race, past mistakes, or the circumstances of their birth, has access to a quality education, fulfilling work, and a healthy family life. It believes that requiring union participation to simply
work and provide for one's family is unconscionable,
and it sees exclusive representation arrangements
like the one at issue in this case as yet one more barrier to opportunity, one that forces many public employees to choose between their job and their First
Amendment rights.
The Illinois Policy Institute is a nonpartisan,
nonprofit public policy research and education organization that promotes personal and economic freedom
in Illinois. The Institute’s policy work includes budget
and tax policy, good government, jobs and economic
growth, and labor policy. During the past several
years, the Institute has assisted thousands of publicsector employees in exercising their freedom to opt
out of union membership. The Institute opposes exclusive-representation schemes that further restrict
the freedom of these public employees by forcing
them to continue associating with a union. Such laws

5
wrongfully make a union the mandated mouthpiece
for those employees.
Independence Institute is a nonpartisan public
policy research organization founded on the eternal
principles of the Declaration of Independence. The
Institute’s scholarship, including articles by Research
Director David Kopel and Senior Fellow Robert
Natelson, was cited last term in New York State Rifle
& Pistol Association v. City of New York (Alito, J.,
dissenting); Espinoza v. Montana Dept. of Revenue
(Alito, J., concurring); and Rogers v. Grewel (Thomas,
J., dissenting from denial of certiorari).
Additionally, Senior Fellow Natelson was previously cited in Upstate Citizens for Equality, Inc v. United
States (2017) (Thomas, J., dissenting); Arizona State
Legislature v. Arizona Independent Redistricting
Com’n (2015) (Roberts, C.J., dissenting); N.L.R.B. v.
Noel Canning (2014) (Scalia, J., concurring); Town of
Greece, N.Y. v. Galloway (2014) (Thomas, J., concurring in part); Adoptive Couple v. Baby Girl (2013)
(Thomas, J. concurring); and Arizona v. Inter Tribal
Council of Arizona, Inc. (2013) (Thomas, J., dissenting). The Institute’s amicus briefs in District of Columbia v. Heller (2008) and McDonald v. City of Chicago (2010), under the name of lead amicus Int’l Law
Enforcement Educators & Trainers Association
(ILEETA), were cited in the opinions of Justices
Breyer (Heller), Alito (McDonald), and Stevens
(McDonald).
The James Madison Institute is a Florida-based
research and educational organization that advocates
for policies consistent with the framework set forth in
the U.S. Constitution and such timeless ideals as lim-

6
ited government, economic freedom, federalism, and
individual liberty coupled with individual responsibility. The Institute is a nonprofit, tax exempt organization under Section 501(c)(3) of the IRC based in Tallahassee, Florida. It supports the First Amendment
rights of all Americans, including public employees.
The John K. MacIver Institute for Public Policy is a Wisconsin-based 501(c)(3) nonprofit organization that promotes free markets, individual freedom,
personal responsibility, and limited government. It
opposes exclusive-representation arrangements that
force public employees to associate with unions with
whom they may disagree on important public policy
issues.
The John Locke Foundation was founded in
1990 as an independent, nonprofit think tank. It employs research, journalism, and outreach to promote
its vision for North Carolina—of responsible citizens,
strong families, and successful communities. JLF is
committed to individual liberty and limited, constitutional government. It has extensive experience with
issues involving public-sector unions and education
reform. JLF opposes collective bargaining for all public sector employees including teachers, and it believes that, if public-sector unions are permitted to
exist at all, they should be supported through employees’ free choice rather than government coercion.
The Josiah Bartlett Center for Public Policy
is a nonprofit educational organization whose mission
is to develop and advance practical, free market policies that promote prosperity and opportunity for all.
In its state, it is common for public employees to have
very different political views than the ones espoused

7
by public employee union leadership. It has seen public employee unions campaign against and fund the
political opponents of organizations run by other public employees. The Josiah Bartlett Center for Public
Policy opposes exclusive representation schemes like
the one challenged here, which force many public
employees to choose between their First Amendment
rights and their jobs.
Landmark Legal Foundation is a national public interest law firm with offices in Kansas City, Missouri, and Leesburg, Virginia. Landmark defends the
Constitution's separation of powers; promotes free,
fair, and secure elections; supports the enforcement
of immigration laws; and represents families who
have lost loved ones at the hands of individuals illegally present in the United States. The Foundation
has a long history of supporting the rights of public
sector employees to work independently of labor unions that use coerced dues or nonmember fees to
promote a political agenda they do not support.
The Mackinac Center for Public Policy is a
Michigan-based, nonpartisan research and educational institute advancing policies fostering free markets, limited government, personal responsibility,
and respect for private property. The Center is a
501(c)(3) organization founded in 1987. The Mackinac
Center has played a prominent role in studying and
litigating issues related to mandatory collective bargaining laws.
The Maine Policy Institute is a 501(c)(3) nonprofit, tax-exempt educational organization that
works to advance individual liberty and economic
freedom in Maine. Maine Policy conducts detailed

8
and timely research, develops public policy solutions,
educates the public, and engages with lawmakers to
foster a greater sense of liberty in Maine. It supports
the First Amendment right of public employees to
choose whether to associate with public sector labor
unions.
The Maryland Public Policy Institute, a
501(c)(3) tax-exempt entity, is a research and educational organization that focuses on public finances,
education, governmental transparency, public pensions, and tax reform. MPPI opposes laws that unconstitutionally burden the First Amendment rights
of any Americans, including public employees.
The Nevada Policy Research Institute is a
nonpartisan education and research organization
dedicated to advancing the principles of economic and
individual freedom. The Institute’s primary areas of
focus are education, labor, government transparency
and fiscal policy. Exclusive representation schemes
like the one at issue in this case discourage talented,
prospective educators from entering and effectively
participating in the teaching profession, thus reducing the quality of education provided to Nevada children. NPRI is a nonprofit, tax exempt organization
under Section 501(c)(3) of the IRC based in Las Vegas, Nevada.
The Pacific Research Institute (PRI) is a nonprofit nonpartisan 501(c)(3) organization that champions freedom, opportunity, and personal responsibility by advancing free market policy solutions to the
issues that impact the daily lives of all Americans. It
demonstrates how free interaction among consumers,
businesses, and voluntary associations is more effec-

9
tive than government action at providing the important results we all seek—good schools, quality
health care, a clean environment, and economic
growth. Founded in 1979 and based in California,
PRI is supported by private contributions. Its activities include publications, public events, media commentary, invited legislative testimony, and community outreach.
The Pelican Institute for Public Policy is a
nonprofit and nonpartisan research and educational
organization, and the leading voice for free markets
in Louisiana. The Institute's mission is to conduct
scholarly research and analysis that advances sound
policies based on free enterprise, individual liberty,
and constitutionally limited government. The Institute has an interest in protecting Louisiana citizens'
First Amendment rights.
Protect the First, Inc. (PT1) is a nonprofit nonpartisan 501(c)(4) organization that advocates for
protecting First Amendment rights in all applicable
arenas. PT1 is concerned about all facets of the First
Amendment and advocates on behalf of people from
across the ideological spectrum, people of all religions
and no religion, and people who may not even agree
with the organization’s views. Because of its commitment to the robust realization of the First
Amendment for all government workers—those who
exercise their freedom to associate with unions and
have them speak for them and those who wish the
same First Amendment freedom to reject association
with and compelled representation by the union—
PT1 is concerned with the proper resolution of the
question presented in this case.

10
The Rio Grande Foundation is New Mexico's
free market think tank. It has long supported equality under the law for both people and organizations. In
the past it has supported efforts to give individuals
the ability to opt out of “forced dues” payments on the
part of workers in industries represented by labor unions. If unions do not wish to shoulder the burden of
representing any worker or group of workers, they
should be freed of that obligation.
The Roughrider Policy Center is North Dakota's leading advocate for free markets and educational choice. The center believes that public employees
should never have to choose between their jobs and
their First Amendment rights, and it therefore opposes exclusive representation arrangements like the
one challenged here.
The Show-Me Institute is a 501(c)(3) research
and educational organization dedicated to improving
the quality of life for all citizens of Missouri by advancing sensible, well-researched solutions to state
and local policy issues. The work of the Institute is
rooted in the American tradition of free markets and
individual liberty. The Institute’s scholars offer private-sector solutions to the state’s social and economic challenges, presenting policies that respect the
rights of the individual, encourage creativity and
hard work, and nurture independence and social cooperation. The Institute believes that participation in
government unions should be voluntary, and it has
published extensive research regarding public-sector
unions and educational reform.
Southeastern Legal Foundation is a national
nonprofit public interest law firm and policy center

11
that advocates for constitutional individual liberties,
limited government, and free speech. For over 44
years, SLF has stood for the First Amendment rights
of all Americans, including public employees.
The Thomas Jefferson Institute for Public
Policy (“TJPP”) is a Virginia-based nonprofit whose
mission is to craft and promote public policy solutions
that advance prosperity and opportunity for all Virginians. TJPP has written articles about the diverse
political opinions held by public sector employees,
and it believes that such employees should never
have to choose between adhering to an exclusive representation scheme or finding another job.
The Virginia Institute for Public Policy seeks
to lay the groundwork for a society dedicated to individual liberty, entrepreneurial capitalism, and a constitutionally-limited government. It believes that exclusive representation arrangements, like the one at
issue in this case, are incompatible with the First
Amendment.
The Washington Policy Center is an independent, nonprofit 501(c)(3) research and educational organization dedicated to improving the lives of the
people of Washington state through accurate, highquality research and the advancement of policy ideas
that promote the public interest.
Wisconsin Institute for Law & Liberty is a
public interest law firm dedicated to advancing the
public interest in limited government, free markets,
individual liberty, and a robust civil society. It opposes exclusive representation arrangements, which it
believes are both bad policy and a violation of public
employees’ First Amendment rights.

12
INTRODUCTION AND
SUMMARY OF ARGUMENT
Petitioner, a public school teacher in Ohio, is
forced by state law to accept the Respondent union as
her exclusive bargaining representative, even though
she is not a member. Pet. 1. The many ways in
which such coerced representation infringes on her
free speech rights are amply described in the petition,
at 6-8. Such fundamental First Amendment infringement is contrary to this Court’s decision in Janus v. American Fed’n of State, Cty., & Mun. Employees, Council 31, 138 S. Ct. 2448, 2460 (2018), and not
disputed by the court of appeals below. Pet. at 9.
That court nonetheless ruled against Petitioner because it felt it lacked the power to overrule this
Court’s pre-Janus decision in Minnesota State Board
for Community Colleges v. Knight, 465 U.S. 271
(1984). While that view seems an overreading of
Knight, one can certainly understand the court’s reluctance to refuse to comply with a decision it deemed
controlling and not expressly overruled by this Court,
notwithstanding the overwhelming contrary import of
Janus.
Only this Court can break the impasse here and in
other circuits that has led to courts upholding unconstitutional infringements on the rights of public employees. Amici thus agree with Petitioner that “this
case ‘presents a First Amendment question of considerable importance.’” Pet. at 9 (quoting Pet. App. 10).
They will not belabor such points, however, as Petitioner has amply described the relevant principles
and cases, and this Court is fully aware of the import
of its Janus decision.

13
Amici further agree that, while Knight need not be
read as requiring the result in this case, to the extent
it is so read it is wrong and in conflict with Janus and
the First Amendment and should be overruled to the
extent necessary to cure that conflict. The Petition
thus presents “an important question of federal law
that has not been, but should be, settled by this
Court.” S. Ct. R. 10(c).
Amici write separately simply to emphasize the
broad concern throughout the nation with such unconstitutional compelled speech and association, and
the many government employees subject to such regimes. Both points reinforce the importance of the
question presented and the appropriateness of this
Court’s review.
ARGUMENT
The Petition Presents an Important Question
that Should Be Resolved by this Court.
The importance of this case, both constitutionally
and practically, is set forth by the Petitioner and others. Amici here note simply that the case affects numerous employees throughout the country and imposes burdens that cannot be squared with the First
Amendment. The wide array of state and national
policy organizations joining this brief reflects such
importance. Amici each devote considerable time and
effort to the cause of liberty and frequently must
struggle to protect the First Amendment rights of
public employees. They thus write to add their voices
to the many others who correctly believe this Court
should act sooner rather than later in curing this ongoing and widespread constitutional affront.

14
Amici further note that this Court’s time and effort
would be well-spent in addressing this issue, as it affects hundreds of thousands of employees around the
country who are covered by collective bargaining
agreements but are not members of the union that
negotiated them.
In Alaska, for example, 14,011 State employees are
covered under collective bargaining agreements yet
only 11,271 were having dues deducted. That leaves
thousands of nonmembers being “represented” by a
union that does not in fact represent them or their
views. And those numbers are only for employees of
the state itself, with many more employees covered at
the municipal, burrough, and school district levels.
Similarly, in Illinois, public sector union membership declined by more than 24,000 workers between
2017 and 2019, not counting workers who were already not members of the union. Frank Manzo IV,
Virginia Parks, Robert Bruno & Jill Gigstad, The
State of the Unions: A profile of Unionization in Chicago, in Illinois, and in the United States 9 (Sept. 7,
2020), http://publish.illinois.edu/projectformiddleclass
renewal/files/2020/09/ILEPI-PMCR-UCI-The-Stateof-the-Unions-Illinois-2020-FINAL.pdf
(“Between
2017 and 2019, which is one year prior to the [Janus]
decision and one year after the decision, total employed union members in Illinois’ public sector fell
from more than 358,000 members to fewer than
334,000 members, a decrease of 6.8 percent.”). And,
based on an analysis of Bureau of Labor Statistics
Data by amicus the Commonwealth Foundation,
344,655 public sector employees were covered by Union contracts but only 319,222 were union members,

15
leaving 25,433 nonmembers in the same position as
petitioner here. See also Brief of Amici Curiae State
of Michigan and Eighteen Other States in Support of
Petitioner, Janus v. American Fed’n of State, County,
and Municipal Employees, Council 31, No 16-1466
(July 10, 2017) (cert. stage), at 10-22 (discussing impacts of public employee unions in Detroit, MI, Stockton, CA, San Bernadino, CA, Chicago, IL and the
State of Illinois generally, and the State of Wisconsin).
The many other cases that have addresseed the
tension between Janus and Knight also reflect and
confirm the large number of employees affected. See
Reisman v. Assoc. Facs. of the Univ. of Me., 939 F.3d
409 (1st Cir. 2019) (state university employees in
Maine); Bierman v. Dayton, 900 F.3d 570 (8th Cir.
2018) (homecare service providers in Minnesota).
Cases decided immediately before Janus similarly
bear out this tension. Hill v. SEIU, 850 F.3d 861 (7th
Cir. 2017) (home healthcare and childcare providers
in Illinois); D’Agostino v. Baker, 812 F.3d 240 (1st
Cir. 2016) (childcare providers in Massachusetts);
Jarvis v. Cuomo, 660 F. App’x 72 (2d Cir. 2016) (unpublished) (home childcare providers in New York);
Uradnik v. Inter Faculty Org., 2018 WL 4654751, at
*2 (D. Minn. Sept. 27, 2018) (unpublished) (state university employees in Minnesota).
On a macro level, the Manhattan Institute has
noted that 22 states have public unions that are affected by the Janus decision and whose non-unionmember workers would be affected by the refusal to
apply Janus to other aspects of forced association
with, and representation by, unions of which they are

16
not members. Daniel DiSalvo, Public-Sector Unions
After Janus: An Update 4 (Manhattan Inst., Feb. 14,
2019), https://media4.manhattan-institute.org/sites/
default/files/IB-DaD-0219.pdf. In those states the
“Janus decision applies to 5.9 million state and local
public employees covered by union contracts.” Ibid.
Amicus Mackinac Center did a previous analysis of
union coverage based on Bureau of Labor Statistics
data from 2000 through 2014 and found rates of nonmembers bound by union CBAs varying from 5-20%
depending on the year and the state, with covered
non-members increasing over time. See Patrick
Wright, Finding Quality Evidence of Union Survivability in the Absence of Agency Fees: Is the Current
Population Survey’s Public Sector Unionism Data
Sufficiently Reliable?, 2017 U. Chi. Legal F. 563, 573590 (2017) (describing methodology and results). Updated, though as yet unpublished, analysis by amicus
Mackinac Center of more recent BLS data showed
significantly higher numbers than the Manhattan Institute data. In 2018, there were 6,723,955 state and
local government workers covered by union contracts,
and 549,740 people who were covered nonmembers —
people who opted out of the union or fee requirements. In 2020, there were slightly more state and local government employees covered by union contracts, 6,741,164 workers and 593,469 people opted
out. The opt-out rate increased from 8.1% to 8.8%
over the period.
These and other examples reflect that hundreds of
thousands of employees around the country are
harmed by the error of courts following Knight rather
than Janus. This Court’s time will be well spent ad-

17
dressing the issue and, in so doing, protecting the
constitutional rights of so many that have endured
this improper regime for so long.
CONCLUSION
For the foregoing reasons, this Court should grant
the Petition for a writ of certiorari.
Respectfully submitted,
ERIK S. JAFFE
(Counsel of Record)
GENE C. SCHAERR
JOSHUA J. PRINCE
SCHAERR|JAFFE LLP
1717 K Street, NW, Suite 900
Washington, DC 20006
(202) 787-1060
ejaffe@schaerr-jaffe.com
Counsel for Amici Curiae

Dated: February 27, 2021

